 DEPARTMENT OF HOMELAND SECURITY

     Office of Inspector General


        Audit of Targeting Oceangoing 

               Cargo Containers 

            (Unclassified Summary) 





            Office of Audits
OIG-07-09                   November 2006
                                                                        Office of Inspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528




                                      November 21, 2006

                                             Preface


The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report represents an abbreviated version of our official use only report assessing the Automated
Targeting System used by Customs and Border Protection inspectors at ports to help select
intermodal cargo containers for inspection. It is based on interviews with employees and officials of
relevant agencies and institutions, direct observations, and a review of applicable documents.

The information contained in this report has been developed to the best knowledge available to us,
and had been discussed in draft with appropriate management officials. It is our hope that this report
will result in more effective, efficient, and economical operations. We express our appreciation to all
of those who contributed to the preparation of this report.




                                             Richard L. Skinner 

                                             Inspector General 

                                                                              Audit
OIG                                                                           Report
Department of Homeland Security
Office of Inspector General


Introduction
                The Bureau of Customs and Border Protection (CBP) has a leading position
                within the Department of Homeland Security in preventing terrorists and
                weapons of mass destruction from entering the country. As part of this
                responsibility, CBP has a mission to prevent oceangoing cargo containers
                from being used as a means to smuggle weapons of mass destruction,
                implements of terrorism, narcotics and contraband, and people into the
                country. But, at the same time, CBP has the obligation to not unduly impede
                the flow of legitimate trade and travel. Approximately 11 million oceangoing
                cargo containers arrive annually at seaports in the United States making it
                impossible to physically inspect each container without hampering the flow of
                commerce. Inspectors at overseas Container Security Initiative (CSI) ports
                and at U.S. seaports, both use the Automated Targeting System (ATS) to
                assess the risk associated with each container and assist in determining which
                containers will undergo inspections.

                This is the second audit performed in response to Public Law 108-293,
                enacted on August 9, 2004, titled Coast Guard and Maritime Transportation
                Act of 2004. Section 809(g) of the Act requires the Office of Inspector
                General (OIG) to evaluate and report annually on the effectiveness of the
                cargo inspection targeting system for international intermodal cargo
                containers. For this report, we focused on the following questions:

                       What are the intelligence sources available, and how is data received,
                       used and shared?

                       Have valid performance measures been developed to provide CBP
                       with feedback on the effectiveness of the targeting system and are they
                       verifiable?

                       How do Automated Targeting System (ATS) targeting scores impact
                       inspection activity?

                       Are CBP targeters receiving the required ATS Training?




                                        Page 1
Background
             We issued our first audit report, titled Audit report Audit of Targeting
             Oceangoing Cargo Containers, OIG-05-26, July 2005, dealing with the ATS
             and its operating environment. That audit covered the vulnerabilities in the
             supply chain and areas for improvement in the targeting system. Specifically,
             we reported that improvements were needed in the data applied to ATS
             targeting rules, the use of inspection results to refine the ATS targeting rules,
             and the physical controls over containers.

             This audit was performed at various Department of Homeland Security (DHS)
             locations within the Washington, D.C. area, and three major ports of entry,
             and covered transactions and procedures current as of June 2005. We
             gathered information through structured interviews, document analysis, data
             collection instruments, and observation of operations. We identified other
             programs and initiatives by either CBP or other agencies that provide controls
             over the movement of containers and identified control weaknesses, along
             with plans to address those weaknesses. We reviewed local procedures and
             evaluation efforts, including self-inspection plans, to determine whether they
             contained controls to ensure that all containers received the intended
             inspection. We sampled and tested the inspection results data associated with
             the containers to confirm whether documentation supported the conduct of
             more rigorous inspections. We analyzed the inspection results data and scores
             associated with containers selected for more rigorous inspections to determine
             how they were distributed among these score ranges. We observed port
             operations and inspection processes and reviewed all available data relating to
             performing examinations and recording examination results, tracking
             containers, and assessing fines and penalties. We obtained a list of the
             required training courses; reviewed course manuals; evaluated the course
             content; reviewed training records at Headquarters and each port; and
             interviewed targeting personnel to ensure that targeters have completed the
             required training.

Executive Summary
             CBP did not fully utilize other sources of intelligence information available.
             Intelligence information is utilized by CBP at both the Headquarters and port
             levels for targeting purposes. CBP’s targeting methodology also includes
             inspector-driven targeting along with the ATS. We observed that two
             available information/intelligence sources were not fully utilized. Also,
             differences in interpreting the Advance Targeting Unit (ATU) policy exist as
             to which CBP port personnel need to have security clearances to better affect
             the targeting mission.

             National ATS performance measures are still being developed for determining
             the effectiveness of the ATS oceangoing container targeting system. These
             measurements will help improve port performance evaluation procedures

                                      Page 2
related to identifying and reviewing shipments. Also, at the port level,
controls over container movement and inspection need to be periodically
reviewed and evaluated.

The inspection process includes tracking containers and ensuring each
container targeted for examination receives a timely and thorough inspection.
With regard to inspection, additional guidance for inspection of shipments
with elevated ATS scores is needed. Also, at the three ports, CBP stills needs
to improve controls over containers requiring examination. Finally, during
secondary level inspections, non-intrusive inspection imagery was not always
available to CBP Officers.

The ATS targeters are receiving or in the process of receiving the required Sea
Cargo Targeting Training. CBP requires targeters to attend a training course,
which provides specialized training in targeting sea-containerized cargo. The
focus of the course is on the use of the various automated targeting systems,
as well as paper manifest review methods. The course is designed to enhance
the skills of officers as targeters in the primary mission to combat terrorism.

We recommended that CBP (1) review the use of intelligence from available
resources; (2) review security clearances; (3) improve port performance
evaluation procedures; (4) refine policies and procedures for identifying and
reviewing high-risk shipments; and (5) ensure that inspection imagery is
provided to officers conducting secondary level inspections. CBP agreed with
our recommendations and outlined planned corrective actions.




                        Page 3
Appendix
Report Distribution



                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Commissioner, Customs and Border Protection
                      Customs and Border Protection, Audit Liaison
                      Assistant Secretary for Legislative and Intergovernmental Affairs
                      Assistant Secretary for Policy
                      Assistant Secretary for Public Affairs
                      Chief Privacy Officer
                      GAO/OIG Liaison Office

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS’ OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as appropriate




                                            Page 4
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG) at
(202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the
OIG Hotline at 1-800-323-8603; write to DHS Office of Inspector General/MAIL
STOP 2600, Attention: Office of Investigations - Hotline, 245 Murray Drive, SW,
Building 410, Washington, DC 20528, fax the complaint to (202) 254-4292; or email
DHSOIGHOTLINE@dhs.gov. The OIG seeks to protect the identity of each writer
and caller.
